r
No. 20-348

3ftt fflfre

Supreme Court of tfte Untteb States?
GREGORYS. MERCER,
Petitioner,
vs.
E. A. Vega, et al.
Respondents.

On Petition For Writ Of Certiorari To The United
States Court Of Appeals for The Fourth Circuit

CERTIFICATE OF COMPLIANCE FOR
PETITION FOR REHEARING

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

received
DEC - *» 2020

CERTIFICATE OF COMPLIANCE
I hereby certify that on this 1st day of
December, 2020, that the “Petition for Rehearing”
complies with SCOTUS Rule 33.1(g) having exactly
3,000 Words and Tan Cover. The List of Counsel at
the end of the document was omitted from the Word
Count in accordance with SCOTUS Rule 33.1(d).

28 U.S.C. §1746 Declaration/Signed
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.

GRESHAWN MERCER, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401
gregory smercer@gmail. com

